CERTIFICATE OF SERVICE

The Petitioner certifies that he mailed this initial Petitioner for Writ of Certiorari to the
following this__1___day of September, 2021;

Office of the Clerk
1 First Street NE
Supreme Court of the United States
Washington, D.C. 20543

Bucher & Cameron, LLP
8880 Rio San Diego Drive,
8th Floor
San Diego, California 92108

Walker Novak Legal Group, for
Imperial Valley Properties LLC
5013 Pine Creek Drive
Westerville, Ohio, 43081

Dawn N. Williams (P72399)
MERS Attorney
Dykema Gossett PLLC
300 Ottawa Avenue, N.W., Suite 700
Grand Rapids, Mi. 49503-8873

Mark Hyland
TM Property Solutions, LLC
2600 S. Shore Blvd
League City, TX 77573

Mr. Douglas E. Winter
Bryan Cave Paisner Leighton
1155 F Street, N.W.
Washington, DC 20004

